/

c
No.

'"1 ,

j

U'KiiCJiiNiA

1:16-cv-0718

Supreme Court, U.S.
FILED

FEB 0 &o2320
18-2541
OFFICE OF THE Ci.ERX

IN THE
SUPREME COURT OF THE UNITED STATES

WEN DONG ZHAO

— PETITIONER

(Your Name)
vs.
U. S DEPARTMENT OF STATE — RESPONDENT (S)
ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

WEN DONG ZHAO
(Your Name)

P.O. Box 527399
(Address)
Flushing, New York 11352
(City, State, Zip Code)

(929)488-6220
(Phone Number)

Wii

!

QUESTION(S) PRESENTED
(1) I went to American Embassy in Thailand twice with two letters. I mailed two letters through post
office. Why Department of State deny? Money?
(2) In the beginning, I wanted to locate the four letters through Department of State, but it told me
the four letters could not be found. Then I told Department of State that Darry I. Johnson, the U.S.
Ambassador in Thailand was the recipient of the four letters and the Thai lady who was the person
receiving mails at the American Embassy in Thailand, and asked Department of State to inquire with
the two persons of the disposal of the letters. But Department of State did not investigate the two
persons. And the judge of the United States District Court for the Eastern District of New York did not
ask Department of State to investigate the recipients of the letters, why?
(3) Why there is no thorough investigation? To verify recipient (witness and defendant) Darry I.
Johnson to get witnesses and evidence. Without witness, evidence and non-appearance of defendant,
why the United States District Court for the Eastern District of New York denied my case?
(4) In 2003, Why did the Bush Administration’s propaganda slogan make 390,000 Iraqi soldiers
surrender and make the three-month war to one month's end? If I made false accusations everywhere,
blackmailed the U.S. government, lied to the U.S. federal court, why didn’t the U.S. government and
the federal court sue me?
(5) What kind of illegal activities did the members of Bush Jr. Administration and the US federal court
make in this intellectual property infringement case? I please the US Supreme Court to check.
(6) Did the Department of Defense and US government adopt the contents of the four letters that I
wrote? If not, I can give several examples.
(7)case 1:16-cv-070108-AMD RLM Document33 File 07/28/2018 page 4 of 9 I would like to ask that
four letters I wrote will be destroyed or not after the assessment by the state council .please verifg
with the U.S.Department of Defense and U.S President George W B ush whether the content of the
letter was used in the 2003 U.S Irag .please answer this question .dear Federal judges and federal
lawyers.this question should not be dodged(APPENDIX.G)
(8)case 18-2541 Document to 04/23/2019 2546374 page 27 of 41 I have objected Go to investigat
whether the witness and .recipient darryIN.Johnson .received the letter or Not.However the court
refused to hear.( PLLENDIX

H)

I think it’s a crime for federal lawyer and the federal government.a federal judge to say ang
speculative assertions or bad evidentce in the federal court .As a federal judge a lauyer.a government
do you dare to do it? They are saying that plaintiff lied and blackmail so the judge the lawger the
government please sue me together!
Sumamary:
Now the plaintiff and the de defendant .have each held their own words and the tederd court fully
accepted the defendant’s testimony .No verification ,No acceptance of the plaintiff’s testimong plus a
lot of doubts, so the plaintiff lost the case, In order to see justice I hope the plaintiff and defendant will
confront with each other in hearing, please accept my (the plaintiffs) request.

(S’

zKao tuen ctohy

/frit

ate I •

LIST OF PARTIES

[*1 A11 parties appear in the caption of the case on the cover page.
[x] All parties do not appear in the caption of the case on the cover page. A list of
petition is as fU pr0Ceeding in the court whose judgment is the subject of this
ThaS in J20h03SOn: He iS the redpient °f the letters- He was lhe Us' Ambassador in Bangkok,
Ste ?n Bangkok,^^2003.'^

“,he ™in en,ranca at US

I

,•
' •%

■•-V

RELATED CASES

(1) On December 12.2004.united Nations political asylum fraud case.Refugee number: 15347.which they
try to replace my 2003 I rag copyright With political asylum against me .and causing china’s National
security Department came to my home to investigate details? please, check with the united states
department.
(2) On September 19.2016.Notice of Hearing In removal, proceedings Immigration

court.26 Federal plz
12 FL courtroom #32 NewYork NY 10278. Layer: Oliver zhou address: 136-21 Roosevtlt Av Suit 408

Flushing NY 11354. Tel:718-886-901-9 Judge: Terry Ban.Here after the judge asked me to take an
oath .I took the oath that the U.S.State

Department pirated my 2003 Iraqi copyright.
(3) Casel: 16-cv-07108-AMD-RLM.Documetn 18 Filed.08/08/2017 page 1 of 6 page ID#122.I told the
U.S. Easterm district court BK. NY.( the name: Darry I.N. Johnson)

[oc^\S

TABLE OF CONTENTS
OPINIONS BELOW....

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE................................
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A Decision of U.S. District Court (#33) Eastern District of New York
APPENDIX B Decision of U.S. Court of Appeals for the Second Circuit (#70)
APPENDIX C Decision of U.S. Court of Appeals for the Second Circuit (September 10, 2019)
APPENDIX D Decision of U.S. Court of Appeals for the Second Circuit (November 14, 2019)
APPENDIX E Declaration of submission of paper copies #10 page 41 of 41
r-i

‘

APPENDIX F ^our Otters to U.S. Embassy in Bangkok Thailand.
APPENDIXG:casel: 16-cv-07108-AMD RLM Document33

File

07/28/18

APPENDIX H:case 18-2541 Document 70.04/23/19 2546374
APPENDIX Lease 1:16-cv-07108-AMD RLM

Document 18 Fied

08/03/17

#122
APPENDIX J.case 1:16gcv-07108-RLM Document 33

Field

07/23/18

Page ID

TABLE OF AUTHORITIES CITED

CASES
PAGE NUMBER
After talking a number of lawyer theylhough:there are
many intellectual propertg piracg cases if the
world-all the same means.but there is No case like the united states government piracg caes It’s generally
corporate and personal piracy.My case is the only case in the world has never been heard in cout.without
any written recods.Therefore I submitted this authoritative case to the supreme court for adjudication .
(1) My contribution to the U.S govement the US government to save $62 billion~300billion expenses.and
time:three mouthes.ten monthes one months and 10OOsadiers and 10000 soldiers injare decrease to
one months and 1000 soliders dead and 10000 soliders injure .(2)My investment one million and ten
thousands dollars.twenty years research more.four months in Jail, begging one week.over ten times
death and danger and difficulty.from 2003’s to 2021’s. It’s 18 years.two people died at home due to
fake political asylum. Ministry of National security of Chinese government investigates my mother and
two brothers.
STATUTES AND RULES

(1) Based on berne convention :c<
•copyright are protected from the completion of creation
without any
formalities, both china and U.S. are members of beme convention
(2) According to article 104 of the U.S copyright law the Chinese
_ ^anizat.ons are Protected by the U.S copyright law.
<3’ rtTto2'° TiCl? 504 °',he °°Py

citizens, legal persons and other
, in tort litigation, there is a

infnnger A loS “T8"83'10" ■ and
^ owner may cliam to the
nnger. A. losses suffered as result of infringement and profits . B . statutory
compensation.

i ncn

H ii

‘ '

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[*] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[X| reported at
April 23, 2019
; or,
[ ] has been designated for publication but is not yet reported; or,
13 is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

B

A

[*j reported at July 23, 2018____ ____________________ . Qr
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix--------to the petition and is
[ ] reported at_____________ ______________ ________. or
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
court
appears at Appendix_____to the petition and is
[ ] reported at____________ ’
__________________. orj
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

U<xf-i£

to

to

JURISDICTION
[x] For cases from federal courts:
The date on^which^the United States Court of Appeals decided my case
was
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
■
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my ease was
A copy of that decision appears at Appendix_______
[ 3 A timely petition for rehearing was thereafter denied on the following date:
-------------------------------—, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2) Sixtt Amendment to the Constitution - The plaintiff has the right to request the court to conduct a Dublic
the plaintiff through^arr^Iuisory'procedures1
defendan' "d
3"d '° « Witnesses in
°f

makfadecisiononthetsSes

9

a"d Pr°dU°e the reSU"S °f the inves,i9a,i°"' The court shall

1

reCipianlS>
(6)case1:13-CV-07108-RMD-RLM DOCUMENT33

‘

”—--------------------

Field 07/23/2018 page4 of 9(JaL APPENDIX J)
Point of contention of the sate department is

on the receiving agency;the state Department did i._.
not
And my P°mt 0f contentlon is ‘hat since the receiving agencg;The U.S.Department
state has not received the letters.whether the witness and the
recipient (Darrgi N Johnson)have
ang letters.can be verified Because when the
letter was entered the embassg.but not filed by the
information center.that is handled by the
__
...
_
but according to stipulations:ang letter entering the
embassy shall be checked and registered.the recipient is the representative of theTrs 'Govemment..."
receive letters

and the letter belongs to The U.S property .Johnson has no right to hide it .Am I right? Please

answer
me .As a result the argument point is different .one is the state council has not received the
letters.plaintiff think the witness (Darry I Johnson)has not received the letter.so the
argument has not
been resolved.which does not conform to the law 56.1 Attention darry IN Johnson
represents the
U.S.government.

)44i£

STATEMENT OF THE CASE
(1) On December 27, 2016,1, based on the Free Information Act, request the U.S. State Department to
produce 4 letters to the U.S. Embassy in Bangkok, Thailand, from January 2003 to August 2003.
lit"6 12, 2017’1 received a Declaration of Eric F. Stein, docketed 14-1, indicating that after inquiry by
the US State Department, the four letters I requested were not found. The time was from January 2003 to
August 2003 and the location was the US Embassy in Bangkok, Thailand.
(3) On July 26, 2017,1 wrote a letter to the U.S. District Judge that I sent the four letters to US Embassy in
Bangkok, Thailand by post office and the receipt was U.S. Ambassador Dairy I N. Johnson in Bangkok,
Thailand. U.S. District Court issued a document docketed 15, confirming that my letter dated July 26 2017
was received. On July 26, 2017,1 sent a letter to U.S. Ambassador Darry I N Johnson according to the
address shown on the website, but did not get any response, except to the receipt of the mail. I sent a letter
VT',f?ri0r Pr€sldent TrumP-to investigate the facts of my letter sent out in 2003. No response neither
(4) On November 06, 2017,1 received a document docketed 23, responding to my demand that after inquiry
statement6"1
t0 US Embassy Was found- However>there is no other evidence except to the written’
(5) On November 08 2017 I sent two documents docketed separately 23, 25, and attached a copy of the four
letters (with the envelops) I sent to US Embassy in Thailand in 2013.
(6) On July 23, 2018, U.S. District Court of New York, Southern District of New York, issued a judgment
docketed 33 based on written statements of Defendant in favor of Defendant Therefore, I appealed to the
Court of Appeals in New York.
(7) On April 23, 2019,1 received a document docketed 70 from the Court of Appeals in New York decided the
action in favor of Defendant based on Defendant’s statement. I request for an opportunity to orally argue
before the judge and/or jury. Then 1 received a notice from the Court and set the August 27 2019 as the
argument date.
(8) Since I failed to pay the attorneys’ fee, I discharged my attorney and chose to proceed by myself. I
rescheduled the argument time with the Court. However, on September 10, 2019,1 was ordered that the
rehearing has been canceled and I lost my case.
(9) On October 01, 2019, we filed a petition to the second Court of Appeals, however, I was ordered to lose
the case again.
(10) fife
KI appealed to the Supreme Court of U.S.

on. ^ Nouamber. 22. .201*1.

fsof |£

REASONS FOR GRANTING THE PETITION
The persuasive reasons are as follows:
(1) Why the judgments of the Federal Court for the Eastern District of the United States and the Second
Court of Appeals of New York are wrong: Because the defendant (recipient) and witnesses (Darry I N
Johnson) d|d not appear in court in any form, that is to say, the Federal Court ruled that I lost the case and
lacked witness (Darry I N Johnson and Thai Lady) and physical evidence (four letters). These two
individuals are the personal and physical evidence presented by the plaintiff. The U.S. State Department did
not answer the question. It did not find physical or personal evidence as evidence, and only used written
records as evidence. The dispute between the two parties was not resolved. (1) The letter was delivered to
how^d“ih ‘^ea.ette%received ^ “ V°U
i,? (2) After reCeiVi"9 ,hiS let,er’

(2) The U.S. Supreme Court mainly makes rulings on the national constitution.
(a) The U.S. District Judge of the Eastern District and the Second Circuit Court of Appeals did not hear the
case twice, leaving the plaintiff without the opportunity to freely state the case and express opinions
violating the First Amendment’s provisions on freedom of speech.
(bfLThe,Ea?"rn District °f to® United States and the Second Court of Appeals did not promptly open the trial
of the plaintiffs case, confronted the defendant’s witnesses, and used compulsory procedures to obtain
witnesses in favor of the plaintiff in violation of the Sixth Amendment of the Constitution. Because the
constitutional amendment should have equal opportunities for the plaintiff and the defendant, both can be
used, and everyone is equal before the law.
(3) The U.S. District Court for the Eastern District and the Second Circuit Court of Appeals have repeatedly
re used to hear the case, making the plaintiff believe that the U.S. government is organizing and planning
piracy cases, rather than individuals and departments participating in the U.S. State Department and the
U.S. Department of Defense, which is detrimental to the image of the U.S. government.
(4) According to the Supreme Court of the United States, cases where the explanation is unclear or a little
bit in fact must be resolved by both the plaintiff and the defendant in court.
(5) Does my case conflict with other appellate court decisions? No. However, in the absence of
authentication and physical evidence, any appellate court in the United States can only lose the plaintiff
based on a text. Only the Federal District Court for the Eastern District of the United States and the Second
Circuit Court of Appeals of New York. Such judgments illustrate two problems (1) 11 am deceiving the US
J , 9es- (2) * am deceiving the US State Department and blackmailing the US State Department’s US
billion Iraqi copyright. If I.was found guilty of the above two crimes, the U.S. Federal Court and the U.S.
State Department can sue me. If I do not prosecute me, it means that I am not guilt for the deception and
extortion.
(6) The statement is inconsistent. A obvious lying.
In the document docketed 14 to me, it said that no letter was received, but in the document docketed 23 it
said that unsolicited research” search -12. This is inconsistent.
In a word, the judgments of the U.S. Eastern District Court and the Second Circuit Court of Appeals were
unfair. The U.S. State Department made false statements. The plaintiff hoped that the U.S. Supreme Court
would listen to the plaintiffs request. Approve of the petition, and seek justice for the plaintiff with fairness

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
s)yyo

Date:
i

)l0f&

-

UlPA

